NO. 20-960
CERTIFICATE OF COMPLIANCE
KHUE NGUYEN,
Petitioner
V.
ESTATE OF THIN THI TA, HAI PHU NGUYEN AS HEIR AND
ADMINISTRATOR,
THAO XUAN TA,
Respondents.

As required by Supreme Court Rule 33.1(h), I certify that the Brief in
Opposition of Writ of Certiorari in the above styled case contains 2188 words
excluding the parts that are exempt under Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 12, 2021.
/s/ Maureen S. Kersey_________
Maureen S. Kersey
Karlseng, LeBlanc & Rich, LLC
State Bar No. 11354800
19111 Dallas Parkway, Suite 120
Dallas, TX 75287
972-733-3800
maureen@klrlegal.com
Counsel for the Respondents

